GENERAL SERVICES ADMINISTRATION
OFFICE OF INSPECTOR GENERAL




           REVIEW OF FEDERAL SUPPLY SERVICE
              TRAVEL AND TRANSPORTATION
                 MANAGEMENT DIVISION’S
             FREIGHT MANAGEMENT PROGRAM
            REPORT NUMBER A060153/F/7/V07004

                      MAY 21, 2007
TABLE OF CONTENTS

EXECUTIVE BRIEF .......................................................................................... i

INTRODUCTION
    Background................................................................................................ 1
    Objectives, Scope, and Methodology......................................................... 3

RESULTS OF REVIEW
    Results in Brief........................................................................................... 5
    Finding 1 - Controls Over IFF Remittance ................................................. 5
           Verification of Reported Sales and Revenue................................... 5
           Accuracy of the NAMP Report ........................................................ 6
           Safeguards Over Credit Card Information ....................................... 7
           Reconciliation of the NAMP Report to Payments ............................ 8
    Finding 2 - Determination of Best Value .................................................... 8
          Support for Performance Measures ................................................ 8
          Accuracy of TMSS Percentage Savings ......................................... 8
    Other Matters ............................................................................................. 9
          TSPs in TMSS................................................................................. 9
          Implementation of TMSS Modules .................................................. 9
    Conclusion ............................................................................................... 10
    Recommendations ................................................................................... 10
    Management’s Response ........................................................................ 11
    Internal Controls....................................................................................... 11

APPENDICES
    Acronyms................................................................................................A-1
    Performance Measure Chart...................................................................B-1
    Management’s Written Response .......................................................... C-1
    Report Distribution ................................................................................. D-1
EXECUTIVE BRIEF

Purpose
The objectives of the review were to determine if the organization ensures:
(1) competitive rates that provide best value to the federal user; and (2) agencies are
remitting the Industrial Funding Fee (IFF) in an accurate, complete, and timely manner.
If not, what are the effects? If the effects are significant, what improvements can be
made?

Background
The Federal Property and Administrative Services Act of 1949 (Act of 1949) designated
the General Services Administration (GSA) as traffic manager for federal agencies and
the only agency authorized to negotiate with transportation carriers on behalf of other
civilian agencies. However, if an agency chooses not to use a GSA tender, the agency
may negotiate its own freight services. Within GSA, the Federal Supply Service, Office
of Transportation and Property Management, Travel and Transportation (T & T)
Management Division develops and manages various programs for the acquisition of
travel and transportation. The FMP, managed by the T & T Management Division,
provides a framework for fulfilling the domestic and international freight shipping
requirements of federal agencies. Prior to Fiscal Year (FY) 1995, transportation
management services were funded by appropriation.             However, changes to
congressional funding in 1995 forced GSA to offer transportation services on a
reimbursable basis to recover its costs.

Results in Brief
The T & T Management Division cannot ensure the IFF is remitted in an accurate,
complete, and timely manner because they do not have adequate controls in place over
the reporting and remitting of sales data and revenue. As a result, the T & T
Management Division does not have reliable financial information to effectively and
efficiently manage the program. While the T & T Management Division has a platform
for Transportation Services Providers (TSPs) to compete for freight business,
management cannot effectively determine if it has achieved its organizational goal to
provide best value to its customers because a majority of FMP’s best value
performance measures rely on sales and revenue, which we found to be inaccurate and
unsupportable because most transportation transactions involve direct procurement
between the customer agency and the TSP, therefore T & T Management Division must
rely on customer agencies to accurately report the shipments and remit the IFF.

Conclusion
We believe the current system of collecting sales and revenue from federal users has
inherent weaknesses, which prohibit the T & T Management Division from securing
accurate, complete, and current information to effectively manage its program. The
T & T Management Division has no enforcement capabilities to review federal users’
records and cannot track sales and revenue to an independent system or source.

                                           i
We recognize there is a current pilot project in place to test the capability of TSPs to
track sales and remit IFF. We believe shifting the responsibility to TSPs with the proper
controls in place may alleviate these weaknesses and increase usage of the T & T
Management Division’s FMP.

Recommendations
We recommend that the Acting Assistant Commissioner of the Office of Travel and
Property Management require the T & T Management Division to:
      1a.    Develop and implement a system to capture and monitor freight sales;
      1b.    Develop and implement a process to independently verify reported sales;
      1c.    Establish policies and procedures to ensure the accuracy and
             completeness of the National Account Manager Program (NAMP) report;
      1d.    Establish policies and procedures to ensure quarterly reports are
             submitted in a timely manner;
      1e.    Develop and implement necessary safeguards to maintain credit card
             information once obtained from the customer agency;
      1f.    Establish policies and procedures to routinely reconcile the NAMP report
             to the Financial Management Information System (FMIS) and adjust
             accruals accordingly;
      1g.    Conduct a reconciliation of prior years’ NAMP reports to FMIS and seek
             recovery of funds due;
      2a.    Develop and implement a process to ensure data used in the performance
             measure calculations is accurate and verifiable;
      2b.    Establish policies and procedures to ensure information disclosed to
             customers in the Transportation Management Services Solution (TMSS) is
             accurate and supportable; and

      3a.    Determine the status and need of the incomplete TMSS modules, prepare
             a timetable for completing those still desired, and assign the necessary
             resources to complete the development and implementation of TMSS in a
             timely manner.

Management’s Response
In his May 16, 2007, response, the FAS Commissioner generally concurred with our
findings and recommendations. Management’s response is included in its entirety as
Appendix C of this report.




                                           ii
INTRODUCTION

Background
The Federal Property and Administrative Services Act of 1949 (Act of 1949) designated
the General Services Administration (GSA) as traffic manager for federal agencies and
the only agency authorized to negotiate with transportation carriers on behalf of other
civilian agencies. However, if an agency chooses not to use a GSA tender, the agency
may negotiate its own freight services. The Act of 1949 also provided the GSA funding
for the cost of providing transportation services.

In April 2006, the GSA received final approval from Congress to establish the Federal
Acquisition Services (FAS), merging the Federal Supply Service (FSS) and the Federal
Technology Service. The GSA Administrator signed a GSA order finalizing the
organizational structure of the FAS in October 2006. GSA plans to begin the
implementation of the FAS in April 2007.

The FSS, Office of Transportation and Property Management, Travel and
Transportation (T & T) Management Division 1 develops and manages various programs
for the acquisition of travel and transportation. The programs include the Freight
Management Program (FMP). To assist FMP customers with freight services, the T &T
Management Division developed the Transportation Management Services Solution
(TMSS), a comprehensive online freight and household goods transportation
management system.

The mission of the T & T Management Division is to provide and manage competitive
travel and transportation services, at best value, to enable federal agencies to
accomplish their missions 2 . In alignment with the agency’s strategic goals, the T & T
Management Division’s performance goals are to: (1) provide best value for customer
agencies and taxpayers, (2) operate efficiently and effectively, (3) ensure financial
accountability, (4) maintain a world class workforce and workplace, and (5) carry out
social, environmental, and other responsibilities as a federal agency. In accordance
with the Government Performance and Results Act of 1993, the T & T Management
Division developed annual performance measures by which to compare actual program
results with the established performance goals.

The FMP, managed by the T & T Management Division, provides a framework for
fulfilling the domestic and international freight shipping requirements of federal
agencies 3 . Prior to Fiscal Year (FY) 1995, transportation management services were
funded by appropriation. However, changes to congressional funding in 1995 forced
GSA to offer transportation services on a reimbursable basis to recover its
administrative costs. Accordingly, the T & T Management Division began charging its
customer agencies an Industrial Funding Fee (IFF).
1
  The organizational structure at the end of our fieldwork
2
  T & T Management Division’s mission as of the end of our fieldwork, March 3, 2007
3
  The T & T Management Division does not have much, if any, international freight business.

                                                   1
The TMSS is a web-based freight and household goods transportation management
system designed exclusively for federal civilian agencies. Currently, TMSS enables
customer agencies to manage their transportation process specifically, rate and route
shipments, book shipments online, generate electronic bills of lading, and complete
shipments. Upon full implementation, TMSS will allow customer agencies to perform
pre-payment audits, pay for the transportation services provided, resolve claims,
produce reports, and facilitate post-payment audits.

The T & T Management Division established zonal offices to serve customer agencies
within their geographical responsibility and to provide training and assistance in using
the TMSS. Customer agencies must sign an agreement to obtain freight services and
are required to report sales and pay the IFF for services rendered. In part, these
services include:
                    Publishing and maintaining the GSA Standard Tender of Services (STOS), which
                     establishes rates, rules, and terms and conditions Transportation Service
                     Providers (TSPs) must follow in conducting business with federal civilian
                     agencies;
                    Tailoring requirements whereby the customer agency may include its own special
                     or unique requirements as part of the STOS;
                    Representing federal agencies’ transportation interests before TSPs, TSP trade
                     associations, and other organizations representing the transportation industry as
                     well as in proceedings before various regulatory bodies; and
                    Providing the TMSS, whereby customer agencies have the ability to do cost
                     comparisons with the most accurate and up-to-date rate information, utilize an
                     electronic bill of lading, and book and complete shipments online.

As shown in the charts below, the FMP sales and revenue increased from $11.5 to
$36.9 million (roughly 221 percent) and $0.5 to $1.5 million (about 200 percent) from FY
2003 to FY 2006.

                               FMP Sales                                                         FMP Revenue

                                                     $36.9
             $40.0                                                                 $2.0
                                                                                                                   $1.5
             $30.0                                                                 $1.5
                               $20.7         $21.6
  Millions




                                                                         Million




                                                                                                 $0.8       $0.9
             $20.0                                           Sales                 $1.0                                   Revenue
                       $11.5                                                              $0.5
             $10.0                                                                 $0.5

                                                                                   $0.0
              $0.0
                       2003    2004          2005    2006                                 2003   2004       2005   2006

                                   Fiscal Year                                                     Fiscal Year




                                                                     2
Objectives, Scope, and Methodology
The objectives of our review were:

       Does the organization ensure: (1) Competitive rates that provide best value to
       the federal user; and (2) agencies are remitting the IFF in an accurate, complete,
       and timely manner? If not, what are the effects? If the effects are significant,
       what improvements can be made?

Our review was limited to the T & T Management Division’s FMP. Also, we limited our
evaluation of FMP’s performance measures to those addressing the performance goals
to provide best value, operate effectively and efficiently, and ensure financial
accountability. See Appendix B – Performance Measure Chart.

To accomplish our objectives, we:
      Reviewed the Act of 1949 to obtain the legislative intent of GSA’s freight
       program;
      Ascertained what services are offered by the T & T Management Division and
       how these services are delivered;
      Obtained the FMP sales and revenue data for the last 4 years;
      Attempted to verify the accuracy of the FMP average cost savings rate of 45
       percent off commercial rates as purported on TMSS;
      Determined the actual number of current, approved TSPs in TMSS;
      Documented the TSP approval and rate submission process;
      Reviewed pertinent documents, such as the GSA STOS, Requests for Offer
       (RFOs), etc.;
      Reviewed and evaluated nine performance measures specific to the FMP;
      Documented the process for recording sales and revenue;
      Documented and evaluated controls over the timely collection, accuracy, and
       completeness of reported revenue;
      Reviewed 93 quarterly reported amounts for 39 of 171 customer agencies to
       ensure they were accurately recorded in the National Account Manager Program
       (NAMP) report;
      Reconciled amounts in the FY 2006 NAMP report to GSA’s Financial
       Management Information System (FMIS) payment records to determine the
       accuracy of the FMP’s reported revenue;
      Compared T & T Management Division’s controls over IFF reporting and
       collection for the FMP to those for the Centralized Household Goods Traffic
       Management Program and Western Distribution Center Pilot Program; and



                                           3
      Interviewed T & T Management Division officials to obtain an understanding of
       the FMP and documents reviewed.

The audit was conducted in accordance with generally accepted government auditing
standards.




                                         4
RESULTS OF REVIEW

Results in Brief
The T & T Management Division cannot ensure the IFF is remitted in an accurate,
complete, and timely manner because they do not have adequate controls in place over
the reporting and remitting of sales data and revenue. As a result, the T & T
Management Division does not have reliable financial information to effectively and
efficiently manage the program. While the T & T Management Division has a platform
for TSPs to compete for freight business, management cannot effectively determine if it
has achieved its organizational goal to provide best value to its customers because a
majority of FMP’s best value performance measures rely on sales and revenue, which
we found to be inaccurate and unsupportable because most transportation transactions
involve direct procurement between the customer agency and the TSP, therefore T & T
Management Division must rely on customer agencies to accurately report the
shipments and remit the IFF.

Finding 1 - Controls over IFF Remittance
The T & T Management Division cannot ensure the amounts customer agencies report
and remit for the IFF are accurate, complete, and timely because controls over the
reporting and collection processes are not adequate. Office of Management and
Budget Circular A-123 (revised) states, “management is responsible for establishing
and maintaining internal control[s] to achieve the objectives of effective and efficient
operations, reliable financial reporting, and compliance with applicable laws and
regulations.” Specifically, we found control issues with verification of reported sales and
revenue, accuracy of the NAMP report, safeguards over customer agency credit card
information, and reconciliation of the NAMP report to payments. As a result, the T & T
Management Division does not have reliable financial information to effectively and
efficiently manage the program.

Verification of Reported Sales and Revenue - The T & T Management Division relies
solely on customer agencies voluntarily reporting business volume and revenue
because an independent mechanism for capturing all sales does not exist.
Furthermore, the T & T Management Division currently does not have the authority to
audit or verify reported sales at the source document level. Customers are not required
to place orders using TMSS, and the T & T Management Division has no other system
to track sales or tenders and is not directly involved in the acquisition process, except
for Standing Route Orders and specialized services. Therefore, there is no method for
producing a verifiable record of sales transactions.

For instance, the United States Postal Service (USPS) reported sales and revenue for
the first three quarters of FY 2006 and paid IFF for the first two quarters. Although the
USPS reported approximately $54,700 of IFF due and payable in the third quarter
report, the USPS did not remit payment. (See Reconciliation of the NAMP Report to
Payments below.) The T & T Management Division has not been able to collect this


                                            5
amount; and without a source to track service usage or independently verify tender
sales, the T & T Management Division is unable to resolve the dispute.

The self-reporting “honor system,” in and of itself, creates a conflict of interest for the
customer because the 4 percent IFF payable to the T & T Management Division creates
a disincentive for customers to complete purchases using the GSA tender and/or report
sales to the T & T Management Division. (See Accuracy of the NAMP Report Finding
below.) Without accurate sales information, the T & T Management Division cannot
effectively manage and meet program goals.

Accuracy of the NAMP Report - The NAMP report is not accurate and complete
because the T & T Management Division does not have policies and procedures to
ensure timely submittal of the quarterly sales reports and the accuracy of the data
entered from those reports. The NAMP report captures business volume and revenue
reported by customer agencies, and the method of payment for IFF due. Finance
accesses the NAMP report to bill and record revenue for the T & T Management
Division.

The Atlanta Zonal Office is responsible for maintaining the NAMP report including
recording of the reported sales and reconciliation of the reports. Each T & T
Management Division zonal office is responsible for maintaining records of
transportation transactions for specialized services and special agency agreements,
and for reporting sales and revenue to the Atlanta Zonal Office. Our analysis of 156 4
quarterly reports that 39 customer agencies were required to submit disclosed 8
reported amounts not recorded, 1 recorded amount not supported, and 63 quarterly
reports apparently not submitted. Although we could not find any policy requiring them
to do so, the Atlanta Zonal Office did not review the reports, correct the errors, or act on
apparent delinquent quarterly reports.

Further, we conducted a review at the agency level and found a larger problem exists in
obtaining timely quarterly reports. Based on our review of the FY 2006 NAMP report,
we found 145 of 171 (85 percent) customer agencies did not report sales and IFF for at
least one quarter. Further, 65 of the 171 customer agencies did not report sales for all
four quarters. See chart below. Without an accurate and complete NAMP report, the T
& T Management Division cannot determine, and Finance cannot bill revenue owed.




4
 Based on the assumption that the 39 customers agencies should have submitted 4 quarterly reports
during FY 2006. We did not take into account new customer agencies that may have signed a TSA during
FY 2006 and therefore not required to submit all 4 quarterly reports for FY 2006.

                                                 6
                    Number of Customer Agencies with No Recorded
                               Sales for At Lease 1 Qtr

              60        50                             46
              50                  41                 38
              40   28        30                                    No Recorded Sales for
              30                            22                     at Least 1 Qtr
              20    10                   10 9                 12
                                  3              6          65     No Recorded Sales for
              10
                                                                   All 4 Qtrs
               0
                   Region Region Region Region Central             Total Number of
                     3      4      6      9    Office              Agencies

                                      Zonal Office



Safeguards Over Credit Card Information - The T & T Management Division does not
have the necessary safeguards in place to secure customer agency credit card
information to aid in the timely processing of recurring quarterly payments. According to
T & T Management Division officials, they contact customer agencies every quarter to
obtain credit card information. Our reconciliation (see Reconciliation of the NAMP
Report to Payments below) found 30 of 48 instances totaling $20,051 where payments
should have been paid in FY 2006 by credit card. The inability of T & T Management
Division officials to securely maintain credit card information for ready access resulted in
unnecessary repetitive quarterly contacts. This situation has undoubtedly caused
payment issues.


                                      FY 2006 IFF Due and Not Paid
                                           by Form of Payment
                                         (Not Including 4th Qtr)


                             10                             8

                                                                        IPAC
                                                                        Credit Card
                                                                        Check

                                                 30




                                                       7
Reconciliation of the NAMP Report to Payments - The T & T Management Division does
not reconcile the NAMP report to revenue recorded in GSA’s FMIS. Thus, T & T
Management Division does not adjust the revenue accrual amount when appropriate.
Our reconciliation disclosed FMP’s FY 2006 revenue was materially understated by
$606,642 for the first three quarters. The T & T Management Division revenue accrual
is based on estimated annual revenue for the fiscal year. Currently, the T & T
Management Division does not perform a reconciliation of revenue owed to revenue
received. Reconciliations of IFF due to payments made may identify revenue accrual
adjustments that should be booked after each quarter.

Finding 2 – Determination of Best Value
Although T & T Management Division’s freight rates appear to be competitive, the T & T
Management Division does not have verifiable information to evaluate their program
goal to provide best value to their customers. The T & T Management Division
developed nine performance measures for the FMP, seven of which address best value.
We found four of the seven performance measures (See Appendix B – Performance
Measure Chart) use unverifiable business volume or revenue, as discussed in Finding 1
above, as the basis for its performance measure calculations. In addition, the T & T
Management Division’s TMSS claim of average savings of 45 percent off commercial
rates is unverifiable. In the absence of verifiable data, the T & T Management Division
is unable to accurately measure its performance and thus cannot effectively determine if
they achieved their goal of providing best value.

Support for Performance Measures - Four of FMP’s best value performance measures 5
are not supported with verifiable data. These measures are meaningful if accurate and
supportable. However, these performance measures use booked revenue, which we
found to be inaccurate and unverifiable in Finding 1 above. Further, the T & T
Management Division uses an unsupportable 40 percent cost savings rate in its cost
savings performance measure. As a result, the T & T Management Division cannot
effectively measure whether they provide best value to their customers.

The T & T Management Division developed two additional measures to evaluate
performance in the areas of operation and financial accountability of the program. We
found these two performance measures were also based on inaccurate and unverifiable
booked revenue.

Accuracy of TMSS Percentage Savings 6 - At least one of the T & T Management
Division’s claims, percent of savings, made on TMSS’s website is unverifiable. It is a
good business practice to support public disclosures of business information or
practices with accurate, complete, and current information. The T & T Management


5
  The four best value performance measures using revenue are Business Volume, Cost Savings, Freight
Revenue, and Percentage of Transportation External Business Volume Booked through TMSS.
6
  This issue was revised as a result of management’s response provided in the memorandum, dated May
16, 2007. See Appendix C.

                                                8
Division may be misleading TMSS users into assuming the rates in TMSS are more
competitive than they actually are.

The T & T Management Division’s website asserts its rates are competitive and
provides an average savings of 45 percent 7 off commercial rates. T & T Management
Division officials stated that the savings percentage was based on a study performed
years ago that was not provided. Although management states a study was conducted,
if produced, it would not suffice because the study would not be current.

Other Matters
During the course of our review, we identified other issues that need to be brought to
management’s attention. While we found a small number of approved TSPs with current
rates, we found a much larger population of approved TSPs that do not have current
rates and may not meet requirements to maintain participation in the program.
Additionally, the T & T Management Division has not developed and implemented
TMSS modules in a timely manner.

TSPs in TMSS - The T & T Management Division does not have a policy to remove or
recertify TSPs in TMSS who do not have current rates. We found 884 out of 1,034
TSPs on the TMSS mailing list that do not have current rates. However, TSPs that
participate in the FMP do not all file rates in TMSS. Some TSPs offer rates for
specialized services and other TSPs may be underlying carriers 8 . As such, their rates
would not be in TMSS.

TSPs who do not have current TMSS rates or specialized services rates, or who are not
current underlying carriers have not recertified they meet the terms and conditions in the
STOS and RFO. As a result, customer agencies may obtain services from TSPs that
may not be currently qualified to provide transportation services to the government.

Upon the initial approval process, TSPs are required to submit the appropriate
documentation per the STOS, and sign a partnership agreement and a certification
statement. After receiving the T & T Management Division approval, TSPs may offer
rates annually in response to an RFO. TSPs recertify they meet all the terms and
conditions required by STOS and RFO when they offer rates. T & T Management
Division should determine if it is in the best interest of the program to establish a policy
or procedure requiring approved TSPs without current rates to recertify.

Implementation of TMSS Modules – The T & T Management Division has not fully
implemented all planned TMSS modules.         Although we did not review the
implementation of TMSS modules in depth, we found that the implementation of
proposed TMSS modules is not timely. In June 2003, FMP management implemented

7
  In calculating its FY 2006 performance measures, FMP management applied a 40 percent cost saving
rate, also unverifiable.
8
  Underlying carriers have been approved by the T & T Management Division. They perform services for
a broker and follow the rates and terms and conditions of the broker’s STOS.

                                                 9
the first module of TMSS, which included modules for cost comparison, rate filings, and
customer registration enhancements.           In mid-April 2004, FMP management
implemented the electronic bill of lading and online shipment booking modules. The
complete shipments module became effective in May 2005. As of March 2006, FMP
had not implemented pre-payment audit, payment, post-payment audit, claims, and
reports modules. T & T Management Division officials stated these modules have not
been completed because of the limited number of resources assigned to the
development and implementation TMSS modules. In addition, the new modules require
coordination and/or interface with electronic data from other offices.

Conclusion
We believe the current system of collecting sales and revenue from federal users has
inherent weaknesses, which prohibit the T & T Management Division from securing
accurate, complete, and current information to effectively manage its program. The
T & T Management Division has no enforcement capabilities to review federal users’
records and cannot track sales and revenue to an independent system or source.

We recognize there is a current pilot project in place to test the capability of TSPs to
track sales and remit IFF. We believe shifting the responsibility to TSPs with the proper
controls in place may alleviate these weaknesses and increase usage of the T & T
Management Division’s FMP.

Recommendations
We recommend that the Acting Assistant Commissioner of the Office of Travel and
Property Management require the Travel and Transportation Management Division to:
      1a.    Develop and implement a system to capture and monitor freight sales;
      1b.    Develop and implement a process to independently verify reported sales;
      1c.    Establish policies and procedures to ensure the accuracy and
             completeness of the NAMP report;
      1d.    Establish policies and procedures to ensure quarterly reports are
             submitted in a timely manner;
      1e.    Develop and implement necessary safeguards to maintain credit card
             information once obtained from the customer agency;
      1f.    Establish policies and procedures to routinely reconcile the NAMP report
             to the FMIS and adjust accruals accordingly;
      1g.    Conduct a reconciliation of prior years’ NAMP reports to FMIS and seek
             recovery of funds due;
      2a.    Develop and implement a process to ensure data used in the performance
             measure calculations is accurate and verifiable;
      2b.    Establish policies and procedures to ensure information disclosed to
             customers in TMSS is accurate and supportable; and

                                           10
      3a.   Determine the status and need of the incomplete TMSS modules, prepare
            a timetable for completing those still desired, and assign the necessary
            resources to complete the development and implementation of TMSS in a
            timely manner.

Management’s Response
In his May 16, 2007, response, the FAS Commissioner generally concurred with our
findings and recommendations. Management’s response is included in its entirety as
Appendix C of this report.

Internal Controls
We assessed the internal controls relevant to the T & T Management Division’s IFF
reporting and collection processes. We identified control weakness and provided
recommendations to strengthen and improve the current practices.




                                        11
APPENDIX A

Acronyms

BV         Business Volume
FAR        Federal Acquisition Regulation
FAS        Federal Acquisition Service
FMIS       Financial Management Information System
FMP        Freight Management Program
FSS        Federal Supply Service
FY         Fiscal Year
GSA        General Services Administration
IFF        Industrial Funding Fee
NAMP       National Account Manager Program
NASA       National Aviation and Space Administration
RFO        Request for Offer
SRO        Standing Route Order
STOS       Standard Tender of Service
TMSS       Transportation Management Services Solution
TSA        Transportation Service Agreement
TSPs       Transportation Service Providers
T&T        Travel and Transportation
USPS       United States Postal Service




                                          A-1
APPENDIX B

Performance Measure Chart



                                                                             Measure   Measure
       Goal                                         Measure                   Valid    Verifiable   Notes
1                                        External customer                     Yes       Yes
                                         satisfaction (Transportation)
       Provide Best Value for Customer




2                                        Satisfaction with TMSS                Yes        Yes
          Agencies and Taxpayers




                                         (targeted question from
                                         customer satisfaction
                                         survey)
3                                        Business volume                       Yes        No         1
4                                        Freight revenue                       Yes        No         2
5                                        Vendor satisfaction                   Yes        Yes
                                         (Transportation only)
6                                        Percentage of transportation          Yes        No          3
                                         external business volume
                                         booked through TMSS
7                                        Freight and HHG savings               Yes        No          4
8                                        Operating cost per $100 of            Yes        No          5
     effectively
     efficiently
      Operate




                                         business volume
         and




9                                        Direct cost as a percent of           Yes        No          6
       Accountability




                                         revenue
         Financial




Notes:
1. BV (Reported IFF/.04 IFF rate) – The T & T Management Division relies on
    customers to report revenue (IFF) and BV (sales) on the honor system and does
    not have an independent system of capturing either.               Further, the
    T & T Management Division’s calculation of BV assumes reported IFF was based
    on 4 percent for all customers, when in fact FMP has negotiated rates for some
    customers.

2.   Freight Revenue (IFF) - This performance measure is not verifiable as discussed in
     Note 1 above.


                                                                       B-1
3.   Percentage of Transportation External Business Volume Booked Through TMSS
     (TMSS Bill of Ladings/BV) – The T & T Management Division miscalculated this
     performance measure because they measured sales with bill of ladings and not
     percentage of transportation external business volume booked through TMSS.
     However, neither calculation can be supported because both calculations use BV
     in the base, which cannot be supported (see Note 1 above). Further, percentage of
     transportation external business volume cannot be verified to customer reported
     sales because the majority of customers report lump sales amounts.

4.   Cost savings [(BV/1-40% cost saving rate) – BV] - This performance measure is
     not verifiable because two calculation components 40 percent cost savings rate
     and BV are not supported. See Note 1 for explanation why revenue was not
     supported.

5.   Operating cost per $100 of BV [Operating Cost/(BV/100)] - This performance
     measure is not verifiable because it relies on BV, which we found is unverifiable in
     Note 1.

6.   Direct cost as a percent of revenue (Direct Cost/Revenue (IFF)) - This
     performance measure is not verifiable because it relies on revenue, which we
     found unreliable in Note 1.




                                          B-2
APPENDIX C

Management’s Written Response




                                C-1
C-2
C-3
C-4
APPENDIX D

Report Distribution

Commissioner, Federal Acquisition Service (Q)................................................................ 3

Acting Assistant Commissioner, Office of Transportation and
 Property Management (FB)........................................................................................... 1

Assistant Inspector General for Auditing (JA & JAO) ........................................................ 2

Audit Follow-Up Evaluation Branch Chief (BECA) ............................................................ 1

Deputy Assistant Inspector General for Auditing (JA-A).................................................... 1




                                                       D-1
